AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 20------------------------------------------------------------------------------------------X
DONALD J. TRUMP FOR PRESIDENT, INC.,
Petitioner,
v.
KATHY BOOCKVAR, SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA, ET AL.,
Respondents.
------------------------------------------------------------------------------------------X
STATE OF NEW YORK
)
COUNTY OF NEW YORK )
I, Julian Hadiz, being duly sworn according to law and being over the age of 18,
upon my oath depose and say that:
I am retained by Counsel of Record for Petitioner.
That on the 20th day of December 2020, I served the within Petition for a Writ of
Certiorari and Motion for Expedited Consideration in the above-captioned matter upon
the parties in the attached service list by sending an electronic version by email to each
individual. One copy of each of same, addressed to each respectively, and enclosed in a
properly addressed wrapper, will be served through the United States Postal Service, by
Express Mail, postage prepaid, on the 21st day of December 2020.
That on the 20th day of December 2020, the within Motion for Expedited
Consideration and the Petition for a Writ of Certiorari were submitted through the
Court’s electronic filing system. On the 21st day of December 2020, eleven copies of the
within Motion for Expedited Consideration, one copy of the Petition for a Writ of
Certiorari, and three hundred dollar filing fee check will be filed by Personal Hand
Delivery.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on this 20th day of December 2020.

______________________________
Julian Hadiz
Sworn to and subscribed before me
20th day of December 2020.

MARIA MAISONET
Notary Public State of New York
No. 01MA6204360
Qualified in Queens County
Commission Expires Apr. 20, 2021

A
(800) 274-3321 • (800) 359-6859
www.counselpress.com

SERVICE LIST
PENNSYLVANIA SUPREME COURT
In Re: November 3, 2020 General Election
149-MM-2020
John Gore
Jones Day
51 Louisiana Avenue, N.W.
Washington, DC 20001
Phone: (202) 879-3939
Email: jmgore@jonesday.com
Counsel for Respondents National Republican Congressional Committee, Republican
National Committee and Republican Party of Pennsylvania
Donna Ann Walsh
Daniel Thomas Brier
Myers, Brier & Kelly, LLP
425 Spruce Street, Suite. 200
Scranton, PA 18503
Phone: (570) 342-6100
Email: dwalsh@mbklaw.com
Email: dbrier@mbklaw.com
Counsel for Respondent Kathy Boockvar
Joshua D. Shapiro, Attorney General of the Commonwealth of Pennsylvania
Howard Greeley Hopkirk
Michael John Scarinci
Pennsylvania Office of Attorney General
Strawberry Sq., 16th Floor
Harrisburg, PA 17120
(717) 783-7556
Email: dbower@attorneygeneral.gov
Email: hhopkirk@attorneygeneral.gov
Email: scarinci.michael@gmail.com
Counsel for Respondent Kathy Boockvar
John Bartley Delone
Pennsylvania Office of Attorney General
1600 Arch Street, Suite 300
Philadelphia, PA 19103
(215) 560-2704
Email: jdelone@attorneygeneral.gov
Counsel for Respondent Kathy Boockvar

1

Regina Marie Blewitt
Joyce, Carmody & Moran, P.C.
9 N. Main Street, Suite 4
Pittston, PA 18640
(570) 602-3560
Email: rmb@joycecarmody.com
Counsel for Respondent Luzerne County Board of Elections
Adam Craig Bonin
The Law Office of Adam C. Bonin
121 S Broad Street, Suite 400
Philadelphia, PA 19107
(267) 242-5014
Email: adam@boninlaw.com
Counsel for Respondent Pennsylvania Alliance for Retired Americans and Counsel for
Respondent DNC Services Corp / Pennsylvania Democratic Party In Re: Canvassing
Observation 30 EAP 2020
Heather Lynn Bozovich
114 S. 2nd Street
Clearfield, PA 16830
(814) 290-0566
Email: heather@bozovichlaw.com
Counsel for Respondent Clearfield County Board of Elections
Keith Adam Button
Shafer Law Firm, P.C.
890 Market Street
Meadville, PA 16335-3318
(814) 724-4540
Email: kbutton@shaferlaw.com
Counsel for Respondent Crawford County Board of Elections
Thomas M. Caffrey
Lehigh County Department of Law
County Solicitor, Room 440
17 S. 7th Street
Allentown, PA 18101
(610) 434-4418
Email: tcaffrey@rcn.com
Counsel for Respondent Lehigh County Board of Elections

2

Jonathan Paul Foster
Bradford County Commissioners
303 S Keystone Ave
Sayre, PA 18840
(570) 888-1529
Email: jonathan.jr@fosterlawfirm.com
Counsel for Respondent Bradford County Board of Elections
Christopher P. Gabriel
Cafardi Ferguson Wyrick Weis & Gabriel LLC
2605 Nicholson Road, Suite 2201
Sewickley, PA 15143
(412) 515-8900
Email: cgabriel@cfwwg.com
Counsel for Respondents Clarion County Board of Elections and Tioga County Board of
Elections
Robert Eugene Grimm
Greene County Office Building 3rd Floor
93 East High Street
Waynesburg, PA 15370
(724) 569-2819
Email: rgrimm@co.greene.pa.us
Counsel for Respondent Greene County Board of Elections
Michele D. Hangley
Hangley, Aronchick, Segal, Pudlin & Schiller
1 Logan Square, 27th Floor
Philadelphia, PA 19103-6995
(215) 496-7061
Email: mhangley@hangley.com
Counsel for Respondents Bucks County Board of Elections, Chester County Board of
Elections, Montgomery County Board of Elections, and Philadelphia County Board of
Elections
Christina Lee Hausner
Lancaster County Solicitor's Office
150 N. Queen Street, Suite 714
Lancaster, PA 17603
(717) 735-1584
Email: chausner@co.lancaster.pa.us
Counsel for Respondent Lancaster County Board of Elections

3

Jennifer B. Hipp
Cumberland County Solicitor's Office
1 W. Main Street
Shiremanstown, PA 17011-6327
(717) 737-8761
Email: jhipp@bogarlaw.com
Counsel for Respondent Cumberland County Board of Elections
Frank Lavery Jr.
Lavery Law
225 Market Street, Suite 304
PO Box 1245
Harrisburg, PA 17108-1245
(717) 233-6633
Email: flavery@laverylaw.com
Counsel for Respondents Franklin County Board of Elections and Perry County Board of
Elections
Kenneth Richard Levitzky
125 Churchill St
P.O. Box 489
Dushore, PA 18614-0489
(570) 928-8288
Email: krllaw@epix.net
Counsel for Respondents Sullivan County Board of Elections and Wyoming County Board
of Elections
Lori A. Martin
Wilmer Cutler Pickering Hale and Dorr LLP
250 Greenwich Street
New York, NY 10007-2140
(212) 295-6412
Email: lori.martin@wilmerhale.com
Counsel for Respondent Common Cause Pennsylvania,
League of Women Voters of Pennsylvania,
NAACP Pennsylvania State Conference
Molly Ruth Mudd
Adams County Courthouse
117 Baltimore Street, 2nd Floor
Gettysburg, PA 17325-2367
(717) 337-5911
Email: muddfreedenberg@aol.com
Counsel for Respondent Adams County Board of Elections

4

Anthony Michael Pratt
Greenberg Traurig, LLP
1717 Arch Street, Suite 400
Philadelphia, PA 19103
(215) 972-5916
Email: prattam@gtlaw.com
Counsel for Respondent Dwight Evans, et al and Pennsylvania State Democratic Party
David Allen Regoli
Westmoreland County Solicitor's Office
Regoli Law Office
333 Freeport Street, Suite 201
New Kensington, PA 15068
(724) 335-0500
Email: regoli@regolilaw.com
Counsel for Respondent Westmoreland County Board of Elections
Edward David Rogers
Ballard Spahr LLP
1735 Market Street, 51st Floor
Philadelphia, PA 19103-7599
(215) 864-8144
Email: rogerse@ballardspahr.com
Counsel for Respondent Delaware County Board of Elections
Robert D. Schaub
Rosenn, Jenkins & Greenwald, LLP
15 S. Franklin Street
Wilkes-Barre, PA 18711-0075
(570) 826-5652
Email: rschaub@rjglaw.com
Counsel for Respondent Susquehanna County Board of Elections
Nathaniel Justus Schmidt
Warren County Solicitor
315 Second Ave., Suite 704
Warren, PA 16365
(814) 723-8665
Email: contact@theschmidtlawfirm.com
Counsel for Respondent Warren County Board of Elections

5

Thomas R. Shaffer
Glassmire & Shaffer Law Offices, P.C.
5 East Third Street
P.O. Box 509
Coudersport, PA 16915-1683
(814) 274-7292
Email: tom@410ross.com
Counsel for Respondent Potter County Board of Elections
Krista Ann M. Staley
Babst Calland Clements and Zomnir, PC
2 Gateway Ctr
Pittsburgh, PA 15222
(412) 394-5400
Email: kstaley@babstcalland.com
Counsel for Respondents Armstrong County Board of Elections, et al., Bedford County
Board of Elections, Blair County Board of Elections, Centre County Board of Elections,
Columbia County Board of Elections, Dauphin County Board of Elections, Fayette County
Board of Elections, Huntingdon County Board of Elections, Indiana County Board of
Elections, Lackawanna County Board of Elections, Lawrence County Board of Elections,
Lebanon County Board of Elections, Montour County Board of Elections,
Northumberland County Board of Elections, Venango County Board of Elections and
York County Board of Elections
Christine D. Steere
Deasey, Mahoney & Valentini, Ltd.
103 Chesley Dr, Suite 101
Media, PA 19063
(610) 892-2732
Email: csteere@dmvlawfirm.com
Counsel for Respondent Berks County Board of Elections
Andrew Francis Szefi
George M. Janocsko
Allan Joseph Opsitnick
Allegheny County Law Department
300 Fort Pitt Commons
445 Fort Pitt Blvd
Pittsburgh, PA 15219-1327
(412) 350-1128
Email: aszefi@alleghenycounty.us
Email: gjanocsko@alleghenycounty.us
Email: aopsitnick@opsitnickslaw.com
Counsel for Respondent Allegheny County Board of Elections

6

Brian J. Taylor
Timothy Patrick Brennan
Richard Eugene Santee
Northampton County Solicitor's Office
669 Washington Street
Easton, PA 18042
(610) 829-6350
Email: btaylor@northamptoncounty.org
Email: tbrennan@northamptoncounty.org
Email: rsantee@northamptoncounty.org
Counsel for Respondent Northampton County Board of Elections
Thomas George Wagner
Meyer Wagner Brown & Kraus
115 Lafayette St
Saint Marys, PA 15857-1327
(814) 781-3445 Email: twagner@mwbklaw.com
Counsel for Respondent Elk County Board of Elections
H. William White, III
Butler County Solicitor's Office
124 West Diamond Street
Po Box 1208
Butler, PA 16003-1208
(724) 284-5100
Email: wwhite@co.butler.pa.us
Counsel for Respondent Butler County Board of Elections
Mark Alan Aronchick
Hangley, Aronchick, Segal, Pudlin & Schiller
1 Logan Sq., 27th Floor
Philadelphia, PA 19103-6995
(215) 496-7002
Email: maronchick@hangley.com
Counsel for Respondents Philadelphia County Board of Elections, Bucks County Board of
Elections, Chester County Board of Elections, and Montgomery County Board of
Elections and Counsel for Respondent Philadelphia County Board of Elections in In Re:
Canvassing Observation 30 EAP 2020
Elizabeth A. Dupuis
Babst Calland Clements and Zomnir, PC
330 Innovation Blvd Suite 302
State College, PA 16803
(814) 867-8055
Email: bdupuis@babstcalland.com
Counsel for Respondent Armstrong County Board of Elections, et al
7

Robert Lawrence Gawlas
Rosenn, Jenkins & Greenwald, LLP
15 S Franklin Street
Wilkes-Barre, PA 18711
(570) 826-5600
Email: robert.gawlas@gmail.com
rgawlas@rjglaw.com
Counsel for Respondent Susquehanna County Board of Elections
Kevin Michael Greenberg
Greenberg Traurig, LLP
1717 Arch Street, Suite 400
Philadelphia, PA 19103
(215) 988-7818
Email: greenbergk@gtlaw.com
Representing: Dwight Evans, et al, Respondent
Counsel for Respondents Pennsylvania State Democratic Party and Dwight Evans, et al.
Terence Martin Grugan
Elizabeth Victoria Wingfield
Ballard Spahr LLP
1735 Market Street, 51st Floor
Philadelphia, PA 19103-7599
(215) 864-8320
Email: grugant@ballardspahr.com
Email: elizabethvictoriawingfield@gmail.com
Counsel for Respondent Delaware County Board of Elections
Sean Robert Keegan
Babst Calland Clements and Zomnir, PC
603 Stanwix Street, 6th Floor
Pittsburgh, PA 15222
(412) 773-8721
Email: skeegan@babstcalland.com
Counsel for Respondent Armstrong County Board of Elections, et al.
Clifford B. Levine
Dentons Cohen & Grigsby, PC
625 Liberty Ave
Pittsburgh, PA 15222
(412) 297-4998
Email: clevine@cohenlaw.com
Counsel for Respondents Pennsylvania State Democratic Party and Dwight Evans, et al.,
Counsel for Respondent Pennsylvania Democratic Party in In Re: Canvassing
Observation 30 EAP 2020 and Counsel for Respondents James Brewster and
Pennsylvania Democratic Party in In Re: Canvass of Absentee and Mail-In Ballots of
November 3, 2020 General Election 31-35 EAP 2020
8

Molly Elizabeth Meacham
Babst Calland Clements and Zomnir, PC
603 Stanwix Street, 6th Floor
Pittsburgh, PA 15222
(412) 394-5614
Email: mmeacham@babstcalland.com
Counsel for Respondent Armstrong County Board of Elections, et al.
Sean Alexander Mott
Adams County Solicitor's Office
117 Baltimore Street
Gettysburg, PA 17325
(717) 337-5911
Email: samott@adamscounty.us
Counsel for Respondent Adams County Board of Elections
Robert Andrew Wiygul
Hangley, Aronchick, Segal, Pudlin & Schiller
18th Cherry Street, 27th Floor
Philadelphia, PA 19103
(215) 496-7042
Email: rwiygul@hangley.com
Counsel for Respondents:
Bucks County Board of Elections, Chester County Board of Elections, Montgomery
County Board of Elections, Philadelphia County Board of Elections and Counsel for
Respondent Philadelphia County Board of Elections in In The Supreme Court Of
Pennsylvania In Re: Canvass Of Absentee And Mail-In Ballots Of November 3, 2020
General Election 31-35 Eap 2020
Kathleen Marie Kotula
Pennsylvania Department of State
306 N Ofc Bldg 401 North St
Harrisburg, PA 17120-0500
(717) 783-1657
Email: kkotula@pa.gov
Counsel for Participant Department of State and Counsel for Participants Bureau of
Commissions, Elections & Legislation in Pennsylvania Supreme Court In Re:
Canvassing Observation 30 EAP 2020

9

----------------------------------------------------------------------------------PENNSYLVANIA SUPREME COURT
In Re: Canvassing Observation
30 EAP 2020
Sean James McGrath
Marcel S. Pratt
Zachary Gene Strassburger
Philadelphia Law Department
1515 Arch St, 15th Floor
Philadelphia, PA 19102
(610) 764-0416
Email: sean.james.mcgrath@gmail.com
Email: marcel.pratt@phila.gov
Email: zachary.strassburger@phila,gov
Counsel for Respondent Philadelphia County Board of Elections
Susan Mon-Yi Lin
Kairys, Rudovsky, Messing, Feinberg & Lin, LLP
The Cast Iron Building
718 Arch Street, Suite 501 South
Philadephia, PA 19106
(215) 925-4400
Email: slin@krlawphila.com
Counsel for Respondent Pennsylvania Democratic Party
----------------------------------------------------------------------------------IN THE SUPREME COURT OF PENNSYLVANIA
IN RE: CANVASS OF ABSENTEE AND
MAIL-IN BALLOTS OF NOVEMBER 3,
2020 GENERAL ELECTION
31-35 EAP 2020
Linda A. Kerns
Law Offices of Linda A. Kerns, LLC
1420 Locust St., Ste. 220
Philadelphia, PA 19102
(215) 731-1400
Email: linda@lindakernslaw.com
Counsel for Elizabeth Elkin

10

Benjamin Hirsch Field
Lydia Maureen Furst
Craig R. Gottlieb
Philadelphia Law Department
1515 Arch Street, 15th Floor
Philadelphia, PA 19102
(215) 683-5024
Email: benjamin.field@phila.gov
Email: lydia.furst@phila.gov
Email: craig.gottlieb@phila.gov
Counsel for Respondents Lisa Deeley, Philadelphia County Board of Elections, Omar
Sabir, and Al Schmidt
Kathleen Marie Kotula
Pennsylvania Department of State
306 N Ofc Bldg 401 North St
Harrisburg, PA 17120-0500
(717) 783-1657
Email: kkotula@pa.gov
Counsel for Bureau of Commissions, Elections and Legislation
Matthew Ian Vahey
Michael R. McDonald
Kahlil Charles Williams
Ballard Spahr LLP
1735 Market Street, 51st Floor
Philadelphia, PA 19103
(215) 864-8485
Email: vaheym@ballardspahr.com
Email: mcdonald@ballardspahr.com
Email: williamskc@ballardspahr.com
Counsel for Respondent DNC Services Corp./Democratic National Committee
John Gracie Mackay Coit
Hangley Aronchick Segal Pudlin & Schiller
One Logan Square, 27th Floor
Philadelphia, PA 19103
(207) 749-9050
Email: jcoit@hangley.com
Counsel for Respondent Philadelphia County Board of Elections

11

Frances Marie Liebenguth
Virginia Spencer Scott
Allegheny County Law Department
445 Ft. Pitt Blvd. Suite 300
Pittsburgh, PA 15219
(412) 419-7068
Email: Frances.Liebenguth@AlleghenyCounty.US
Email: Virginia.Scott@AlleghenyCounty.US
Counsel for Respondent Allegheny County Board of Elections
Marco Santino Attisano
Attisano & Romano, LLC
429 Fourth Ave, Suite 1705
Pittsburgh, PA 15219
(412) 336-8622
Email: marco@arlawpitt.com
Counsel for Respondents James Brewster and the Pennsylvania Democratic Party
Matthew Hermann Haverstick
Shohin Hadizadeh Vance
Joshua John Voss
Samantha G. Zimmer
Kleinbard, LLC
1717 Arch Street, 5th Floor
Philadelphia, PA 19103
(215) 496-7225
Email: mhaverstick@kleinbard.com
Email: svance@kleinbard.com
Email: jvoss@kleinbard.com
Email: szimmer@kleinbard.com
Counsel for Petitioner Nicole Ziccarelli
Kyle John Semroc
Dentons Cohen & Grigsby, PC
625 Liberty Ave, 5th Floor
Pittsburgh, PA 15222-3152
(412) 297-4646
Email: kyle.semroc@dentons.com
Counsel for Respondents James Brewster and Pennsylvania Democratic Party
Michael James Healey
Healey Block LLC
247 Fort Pitt Blvd., 4th Floor
Pittsburgh, PA 15222
(412) 391-7711
Email: mike@unionlawyers.net
Counsel for Respondents James Brewster and Pennsylvania Democratic Party
12

Casey David White
Burns White LLC
48 26th Street
Pittsburgh, PA 15222
(412) 995-3270
Email: dbwhite@burnswhite.com
Counsel for Petitioner Nicole Ziccarelli

13

